U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

May 19, 2021

Honorable Scott Harris, Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

City
of
Portland,
Oregon,
et
al.
v.
Communications Commission, et al., No. 20-1354

Federal

Dear Mr. Harris:
The petition for a writ of certiorari was filed on March 22,
2021, and was placed on this Court’s docket on March 25, 2021.
After one extension, the response for the government is due on May
26, 2021. We respectfully request, pursuant to Rule 30.4 of the
Rules of this Court, a further extension of time to and including
June 2, 2021, within which to file the government’s response.
This request for an extension of time is necessary because of
the heavy press of cases assigned to the attorneys responsible for
preparing the government’s response. Counsel for the petitioners
has informed us that she does not oppose this request.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

see attached service list

20-1354
CITY OF PORTLAND, OREGON, ET AL.
FEDERAL COMMUNICATIONS COMMISSION, ET
AL.

JOHN J. KORZEN
WAKE FOREST UNIV. SCHOOL OF LAW
APPELLATE ADVOCACY CLINIC
POST OFFICE BOX 7206
REYNOLDA STATION
WINSTON-SALEM, NC 27109
336-758-5832
KORZENJJ@WFU.EDU
TILLMAN L. LAY
SPIEGEL & MCDIARMID LLP
1875 EYE STREET, NW
SUITE 700
WASHINGTON, DC 20006
202-879-4000
TIM.LAY@SPIEGELMCD.COM
JEF PEARLMAN
INTELLECTUAL PROPERTY & TECHNOLOGY
LAW CLINIC UIVERSITY OF SOUTHERN
CALIFORNIA GOULD SCHOOL OF LAW
699 EXPOSITION BLVD.
LOS ANGELES , CA 90089-0071
213-740-7613
JEF@LAW.USC.EDU

JOSEPH VAN EATON
BEST BEST & KRIEGER LLP
1800 K STREET, NW
SUITE 725
WASHINGTON, DC 20006
202-785-0600
JOSEPH.VANEATON@BBKLAW.COM

